No. 20-1669

 

 

IN THE
Supreme Court of the United States

ROBERT GENE WILL, II,

Petitioner,
v.

Boppy LUMPKIN,
DrirEcTOR, TEXAS DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,116 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 27, 2021.

Colin CasewWHogan
Wilson-Epes Printing Co., Inc.
